<html>
<title> - CONFRONTING VIOLENT WHITE SUPREMACY (PART V): EXAMINING THE RISE OF MILITIA EXTREMISM</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  CONFRONTING VIOLENT WHITE SUPREMACY
                      (PART V): EXAMINING THE RISE
                          OF MILITIA EXTREMISM

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2021

                               __________

                           Serial No. 117-25

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-688 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                              
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     Dave Rapallo,  Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Kweisi Mfume, Maryland               Pete Sessions, Texas, Ranking 
Debbie Wasserman Schultz, Florida        Minority Member
Robin Kelly, Illinois                Jim Jordan, Ohio
Ayanna Pressley, Massachusetts       Clay Higgins, Louisiana
Eleanor Holmes Norton, District of   Andy Biggs, Arizona
    Columbia                         Nancy Mace, South Carolina
Alexandria Ocasio-Cortez, New York   Scott Franklin, Florida
Rashida Tlaib, Michigan              Byron Donalds, Florida
Danny K. Davis, Illinois
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2021.....................................     1

                               Witnesses

Mary McCord, Legal Director, Institute for Constitutional 
  Advocacy and ProtectionGeorgetown University
Oral Statement...................................................     7

The Honorable Gurbir Grewal, New Jersey Attorney General
Oral Statement...................................................     9

Peter Simi, Associate Professor of Sociology, Chapman University
Oral Statement...................................................    10

Michael Gonzalez, Senior Fellow, The Heritage Foundation
Oral Statement...................................................    11

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              
Documents entered during the hearing by Unanimous Consent (UC), 
  and other documents for this hearing, including Questions for 
  the Record (QFR's) are listed below.

  * UC - Statement from the Attorney General of Michigan; 
  submitted by Chairman Raskin.

  * UC - Statement from the Attorney General of Oregon; submitted 
  by Chairman Raskin.

  * UC - Statement from the Attorney General of Virginia; 
  submitted by Chairman Raskin.

  * UC - Article, ``Nevada County GOP Canceled Meeting Amid Fear 
  of Proud Boy Insurgency''; submitted by Chairman Raskin.

  * UC - Testimony by the Southern Poverty Law Center; submitted 
  by Chairman Raskin.

Documents are available at: docs.house.gov.

 
                  CONFRONTING VIOLENT WHITE SUPREMACY
                      (PART V): EXAMINING THE RISE
                          OF MILITIA EXTREMISM

                              ----------                              


                        Wednesday, May 26, 2021

                   House of Representatives
                  Committee on Oversight and Reform
          Subcommittee on Civil Rights and Civil Liberties,
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:12 p.m., via 
Zoom, Hon. Jamie Raskin (chairman of the subcommittee) 
presiding.
    Present: Representatives Raskin, Maloney, Wasserman 
Schultz, Kelly, Pressley, Norton, Tlaib, Sessions, Jordan, 
Biggs, Mace, Franklin, and Donalds.
    Also present: Representative Slotkin.
    Mr. Raskin. The subcommittee will come to order.
    The chair is authorized to declare a recess of the 
committee at any time.
    Without objection, the distinguished gentlewoman from 
Michigan, Ms. Slotkin, shall be permitted to join the hearing 
and be recognized for the purpose of questioning witnesses 
today. And welcome to you, Congresswoman Slotkin.
    I want to say a word before we begin about these terrible 
shootings in San Jose, which have apparently cost the lives of 
eight people already. So, our thoughts are with the people of 
San Jose, and we hope that there will be no further loss of 
life, obviously.
    We are here today in the Oversight Subcommittee on Civil 
Rights and Civil Liberties to talk about the threat of violent 
right-wing militia groups, and I want to note that this is the 
fifth hearing in our subcommittee's ongoing investigation of 
the problem of violent white supremacy. These hearings began 
not after the insurrection on January 6. They began in May 
2019. That was when we first tried to define the problem. Then 
we had a hearing on June 4 of 2019 addressing the Federal 
response and plans to deal with the problem of domestic 
extremism, which the Department of Homeland Security under 
Donald Trump defined as the No. 1 security threat to the people 
of the United States. We had a hearing then on September 20 of 
2019 on the transnational nature of the threat of violent white 
supremacists and neofascist activity, and the threats that they 
pose to national security. And then on September 29 of 2020, we 
looked at the question of white supremacists' infiltration of 
law enforcement and the military.
    Last month, ``60 Minutes'' did a very powerful and cogent 
segment on the Oath Keepers militia and their specific 
involvement in organizing and participating in the January 6 
violent insurrection against the U.S. Government. And I would 
like to play some clips from that segment, if the clerk could 
go ahead and play the video, to give you a vivid sense of the 
way that militia groups are now integral to extreme right-wing 
violence in America.
    [Video shown.]
    Mr. Raskin. So, those were just some excerpts from the 
report. I strongly encourage the members of the committee to 
watch the entire ``60 Minutes'' segment.
    I will now recognize myself for an opening statement before 
going to the ranking member.
    Thank you to all of our witnesses for joining us today. We 
have a very distinguished panel of experts, and we are thrilled 
to have you here. I also want to thank Chairwoman Maloney for 
lending your support and for joining this hearing today. As I 
noted earlier, the hearing is part of our subcommittee's 
ongoing work to expose the dangers of white supremacist 
violence to the American people and our national security, and 
also to explore the best legislative efforts to counter 
domestic violent extremism, which has been identified as the 
key security threat to the American people today from 
terrorism.
    On January 6, armed domestic extremists invaded the Capitol 
and laid siege to the Congress to overthrow our election and 
our constitutional order. They repeatedly threatened to hang 
Vice President Mike Pence and to kill Speaker Nancy Pelosi. 
They caused five deaths, and they injured more than 140 of our 
police officers, who, among other things, lost fingers, lost an 
eye, suffered a heart attack, and endured traumatic brain 
injuries, as well as other physical and mental traumas.
    The insurrectionists violently disrupted the peaceful 
transfer of power in our country and threatened to disrupt and 
derail our constitutional order. The insurrection should have 
been a wakeup call to everyone who had spent years minimizing 
and whitewashing the dangers of far-right violence in America. 
To be clear, the people who stormed the Capitol were not 
patriots. They were not tourists. They were domestic terrorists 
and insurrectionists who got people killed and injured that 
day. If January 6 was a tourist visit, then the Civil War was a 
nature hike.
    In this hearing, we are going to focus a spotlight on the 
organized paramilitary groups, such as the Oath Keepers and the 
Three Percenters, that helped to plan the violence that was at 
the center of the insurrection and lent military-grade tactical 
knowledge and strategies to the mob violence that engulfed us 
in Congress. Both of these groups, the Oath Keepers and Three 
Percenters, are part of the expanding network of militia 
violent extremists referred to in Federal law enforcement as 
MVEs, militia violent extremists, that have become the 
nationwide organizational backbone of far-right violent 
extremism. In a March 2021 report, the director of National 
Intelligence identified MVEs as one of the most lethal domestic 
terror threats facing America and warned that they would, 
``take overt steps to violently resist or facilitate the 
overthrow of our government.''
    Militia-based violent extremists established themselves as 
the key force in the far-right extremist coalition well before 
January 6. The same militia groups that later scaled the walls 
of the Capitol spent the last year organizing opposition to 
public health measures designed to curb the spread of COVID-19. 
Their armed demonstrations resulted in multiple hostile 
takeovers of state capitals. Lawless militia extremists even 
plotted the kidnapping and murder of Governor Gretchen Whitmer 
in Michigan. As I said at the impeachment trial of Donald 
Trump, this Michigan conspiracy was a dress rehearsal and a dry 
run for the January 6 insurrection against Congress. The 
militia groups like to depict themselves as part of a so-called 
patriot movement standing up to Federal tyranny. They often 
assert that they are not racist and can point to the fact that 
the FBI and DHS categorize militia extremists separately from 
white supremacists, but this artificial division totally 
ignores both the history and the law.
    The militia movement arose out of the vigilante gangs of 
the Jim Crow South and coalesced into a Christian patriot 
movement that fused anti-government activism with old-fashioned 
racist conspiracy theories. Also, it should be clear that these 
militias have no grounding in the U.S. Constitution. The 
Constitution refers to a well-regulated militia in the Second 
Amendment, which the Court has defined as a militia that is 
authorized and regulated by state governments. Since 1886, it 
has been clear that the Second Amendment does not protect 
private militias, but only those that are regulated and 
organized by the government, and every state today has a 
militia which we call the National Guard. And Justice Scalia 
echoed this view in his opinion in District of Columbia v. 
Heller.
    Historian Kathleen Belew, a witness at one of our prior 
hearings on violent white supremacy, wrote that the growth of 
the modern private militia movement in the 1990's was ``framed 
by the same worldview, logic, and symbols that had long 
structured white power activism and violence.'' She has also 
observed that it is a mistake to draw too many fine ideological 
distinctions among different factions of far-right extremists 
instead of treating them all as part of a broader racist 
political movement and social movement. We saw that racist 
social movement in action this summer when militia groups and 
white supremacists acted together to assault activists at 
racial justice protests. Militias made at least 55 different 
appearances at racial justice rallies last year, illegitimately 
claiming the authority to patrol American streets. Their 
vigilantism sometimes turned deadly and then was blamed on 
Black Lives Matter, as we saw in Kenosha, Wisconsin, where 17-
year-old self-proclaimed militia member, Kyle Rittenhouse, 
traveled from Illinois with an assault weapon and killed two 
protesters and grievously wounded another.
    The case of Mr. Rittenhouse also exposes the alarming 
interaction between militia extremists and law enforcement in 
some places. Kenosha police reportedly told Rittenhouse and his 
fellow militiamen that they appreciated their presence, even 
though they were all heavily armed and flagrantly violating a 
curfew order. Elsewhere in the country, police have also 
occasionally acquiesced to vigilante activity by these private 
militias. Recruitment of law enforcement is a key strategic 
objective of major militias, like the Oath Keepers and the 
Three Percenters. Leaked data from the Oath Keepers shockingly 
suggest that two-thirds of its members are retired, or active 
duty even, law enforcement.
    This morning, I sent a letter to Secretary Mayorkas seeking 
information about DHS' strategy to combat militia extremism 
today, but we also need to examine structural reforms more 
seriously, including whether the overly complex taxonomies of 
far-right extremism undermine our ability to respond to the 
broad movement of vigilantes who have organized to violently 
oppose our constitutional democracy. We have also spoken to 
several state attorneys general, who emphasized that there is 
not enough Federal support for coordinating regional responses 
to militia extremism or sharing information about potential 
threats to public security.
    The so-called patriots who stormed the Capitol are domestic 
extremists, whose paramilitary activities are not protected by 
any part of the Constitution of the United States. We need a 
coherent strategy that provides state law enforcement with 
adequate resources to coordinate regional responses to this 
threat and appropriately addresses the sweeping dangers of this 
organized paramilitary movement against American democracy.
    I hope today will improve our understanding of militia 
extremism and its place in the overall movement of violent 
white supremacy. The hearing should also yield information on 
how we can work together to improve our national response to 
better defend democratic institutions in the country.
    Before we move on, without objection, I will enter into the 
record statements from the attorneys general of Michigan, 
Virginia, and Oregon. All of them are calling for additional 
Federal resources to address the threat.
    Mr. Raskin. And with that, I will now recognize my friend, 
the distinguished ranking member, Mr. Sessions, for his opening 
statement.
    Mr. Sessions. Chairman, thank you very much, and to each of 
our witnesses that will be appearing today, we appreciate not 
only your time, but also your academic credentialing that 
brought you to this table, and also your gathering of the 
opening statement.
    Mr. Chairman, it looks like today we are realizing that 
Black Lives Matter and Antifa are not the only sources of 
political violence in this country. Political violence has 
expressed itself in our streets for a number of years now. It 
has expressed itself perhaps out of frustration or perhaps 
because there was a recognition of a larger political angle 
that would be taken. That political angle is disturbing to me. 
It is disturbing to each Member of Congress. It is disturbing 
as we hear that many times it is not just the law that is being 
attacked, but it is law enforcement. It is not just the laws 
and law enforcement, it actually is government.
    We as a country must have, from top to bottom, not just the 
President the United States, but we as Members of Congress, 
people who have the ability to see violence and people who have 
the opportunity to see the carnage that takes place in our 
cities as dangerous to America. Being a part of this, whether 
you are in Black Lives Matter or Antifa, whether you are in 
Portland, Oregon or Minnesota, or whether you are in the United 
States Capitol, this is a problem to our country. Chaos is not 
an answer, but rather an understanding about rule of law, the 
rule of law enforcement, and the rule that we must have a 
stable government is the basis of why we are here today.
    It is my hope that we will include, and I know this is the 
fifth hearing, but that we will include lots of information 
that specifically relates to the opportunity to understand each 
of these forms of terrorism, each of these forms of violence, 
and each of these forms of what I think many times is political 
expression. As you know, political expression is specifically 
allowed in our Constitution and by our Constitution, but 
violence should find no safe harbor in any law or the things 
that we do. And, Mr. Chairman, I will tell you that until we 
get to the point, in my opinion, where each of us come 
together, not just as Members of Congress, not just as attorney 
generals, not just as law enforcement, but until we come 
together and decide that the chaotic nature in which we are 
treating this in a political sense must be solved.
    As you know, my father served as the fourth director for 
the Federal Bureau of Investigation, and yet many times I see 
where our law enforcement officials are silent except in what 
might be a political basis. I am not suggesting they have been 
politicized. I am not suggesting that there is anything wrong 
with this, except that I believe that law enforcement needs to 
take the responsibility for changes that would be made within 
law enforcement from a professional basis as opposed to Members 
of Congress or city councils deciding that they are going to 
make judgments about law enforcement. We need Members of 
Congress who will stand up and denounce violence across the 
board. We need Members of Congress who will stand up and 
represent people, but not try and inflict anything other than a 
positive policy that would bring us together.
    I am disappointed to see and to hear about the shooting, 
once again, that took place in California. And while I know 
little about it, I will tell you that it was a person who broke 
the law. He was a person who violated other people's rights. I 
don't know whether it was Hispanics. I don't know if it was 
African Americans. I don't know if it might be anyone else. 
What I do know is that we have a country that has found itself 
in a violent circumstance, and we all need to gather together. 
Mr. Chairman, that is why I have tried and you have tried to 
work toward the middle, toward the middle where we could talk 
to each other, where we could have conversations with each 
other that would be about healing our Nation.
    And so it is my hope that we will use this hearing today to 
instructively look at what there is enough evidence to believe, 
that there might be some of these violent groups, and there may 
be some people that are in law enforcement and perhaps in the 
military, but that we need to include looking not just at this 
event, but Antifa and Black Lives Matter, because the violence 
that has taken place, whether it is New Jersey, whether it is 
Portland, Oregon, or whether it is our beautiful hometowns, we 
need to get a handle on this and to understand the basis of 
solving our problems.
    Mr. Chairman, I want to thank you for not only repeatedly 
working with me and asking my opinion, but for trying to work 
to the middle. And I would ask that each of our members today 
listen very carefully as we have a very distinguished gentleman 
from New Jersey who cares very much about his state and wants 
to have the very best, and that we will find a way to rally 
around against violence, and extremism, not just aiming at one 
particular area.
    Mr. Chairman, thank you for your time, and I welcome our 
witnesses.
    Mr. Raskin. And I want to thank the ranking member for his 
thoughtful opening statement. We have also been joined by the 
chair of the Oversight Committee, Chairwoman Maloney. We are 
very grateful for your continuing support of our subcommittee 
and for the work that you have done leading the investigation 
into the violent insurrection of January 6. I will now 
recognize you, Madam Chair, for opening remarks.
    Mrs. Maloney. Thank you so much, Chairman Raskin, and all 
of my colleagues for your leadership in bringing in this 
hearing together, and for your leadership on the increase of 
militia violence in our country with your many different 
hearings. As Members of Congress and as Americans, we cannot 
afford to ignore the rising threat of militia extremism. The 
events of January 6 clearly demonstrated the danger that 
domestic violent extremism poses to our democracy. America 
cannot afford to repeat the events of that day ever again, so 
we need to be clear and honest about the connections between 
militia extremism, white supremacists, domestic violent 
extremism, and the events of January 6.
    On that day, the whole world watched on TV as extremists in 
military and police gear, some carrying weapons, broke into our 
Capitol and tried to disrupt the peaceful transfer of power. 
Some of these insurrectionists were soldiers, and many others 
were militia members with the Oath Keepers and other anti-
government gangs. While some militia groups publicly disavow 
racism, the history of the militia movement is deeply 
intertwined with white supremacy, and fast-growing militia 
groups that are operating today are aligned with white 
supremist extremists.
    Days after the Capitol insurrection, the FBI, DHS, and the 
National Counterterrorism Center issued a joint warning about 
an increase in hateful, racist rhetoric by groups like the 
Three Percenters. The report warned that the gathering of 
domestic violent extremists on January 6 would likely foster 
connections between radical groups and increase the 
``willingness, capability, and motivation'' of those groups to 
attack our government. In other words, January 6 was not just a 
dangerous attack on our democracy, it was a massive recruiting 
event for these extremist groups, who will continue to use it 
to recruit others to their cause.
    There is no room for excuses or ignoring this problem any 
further. We need an honest assessment of the extent of this 
problem, which is hiding in plain sight. Failure to address 
this form of extremism will doom us to repeat the destruction 
of January 6. That is why I am calling on the Senate to pass 
the January 6 Commission bill that the House has already 
passed. Like the 9/11 Commission, it will help us to understand 
what happened, and, more importantly, it will help us prevent 
what happened on January 6 from ever happening again.
    I look forward to hearing from all of our witnesses, and I 
yield back. And thank you, Mr. Chairman.
    Mr. Raskin. And, Madam Chair, thank you for your very 
thoughtful remarks there. And in order to pursue precisely that 
objective, to make sure this never happens again, we have 
assembled some of the finest authorities in the country on this 
question, so I am going to introduce our witnesses now. Our 
first is Mary McCord, who is the executive director of 
Georgetown University's Institute for Constitutional Advocacy 
and Protection. Then we will hear from the attorney general of 
the great state of New Jersey, Gurbir Grewal. Welcome, Attorney 
General. Then we will hear from Professor Peter Simi, who is 
associate professor of sociology at Chapman University. And 
finally, we will hear from Michael Gonzalez, who is a senior 
fellow at the Heritage Foundation here in Washington, DC. So 
with that, the witnesses will please unmute themselves as you 
go. Well, actually, please all unmute yourselves now so I can 
swear you in. Please raise your right hands on Zoom, if you 
would.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Mr. Raskin. Great. Let the record show that the witnesses 
each answered in the affirmative. Thank you very much.
    Without objection, Witnesses, your written statements will 
be made part of the record. Each of you will be given five 
minutes to synthesize and summarize, and then we will open it 
up for questions. Ms. McCord, you are now recognized for your 
testimony.

    STATEMENT OF MARY MCCORD, ESQUIRE, EXECUTIVE DIRECTOR, 
     INSTITUTE FOR CONSTITUTIONAL ADVOCACY AND PROTECTION, 
                     GEORGETOWN UNIVERSITY

    Ms. McCord. Thank you. Chairman Raskin, Ranking Member 
Sessions, members of the subcommittee, Chairwoman, thank you 
for inviting me to testify.
    Many people associate private militias with the armed 
standoffs against Federal agents in areas of the West and the 
South, but recently we have seen private militias engaging much 
more frequently and openly with the general public. Operating 
under a command and control structure, armed with assault 
rifles, and often dressed in full military kits, private 
militias have conducted armed assaults on state houses in 
opposition to public health measures and in the assault on the 
U.S. Capitol on January 6. They also have self-deployed during 
racial justice demonstrations in supposed augmentation of law 
enforcement. Their activity both threatens public safety and 
infringes on the constitutional rights of others.
    Indeed, recently analyzed data shows that in the last 16 
months, there were over 900 incidents of armed activity during 
demonstrations and protests, and more than 500 involved clearly 
affiliated private militia actors. The results have sometimes 
been lethal as last year's shootings in Kenosha, Wisconsin 
demonstrated, but there are potentially more dangerous threats, 
including the 2020 plot by an accelerationist militia group, 
The Base, to start a civil war in order to create a white 
ethnostate, the plot by militia extremists to kidnap Michigan 
Governor, Gretchen Whitmer, and the alleged plotting by militia 
members who attacked the Capitol on January 6. Unfortunately, 
there is a widespread misunderstanding that private militias 
are constitutionally protected, but private militias are not 
authorized by Federal or state law, they are not protected by 
the Second Amendment, and they are unlawful in all 50 states.
    First, since before the founding, ``well-regulated'' has 
always meant regulated by the government. Historically, the 
militia consisted of all able-bodied men who could be called 
forth by the governor when needed and were answerable to the 
governor. The well regulation of the militia was baked into the 
U.S. Constitution, which gives Congress the power to organize, 
arm, and discipline the militia, a power it exercised by 
authorizing the state militias answerable to state governments. 
And it was baked into the constitutions of nearly every state, 
which required that the military always be strictly subordinate 
to and governed by the civil authority.
    Second, the Supreme Court has been clear since 1886 that 
the Second Amendment does not protect private militias, and 
that states must be able to ban them as necessary to the public 
peace, safety, and good order. The Supreme Court reiterated 
this in 2008 in District of Columbia v. Heller, which held for 
the first time that the Second Amendment protects an individual 
right to bear arms for self-defense. Justice Antonin Scalia, 
writing for the majority, pointedly contrasted that individual 
right with paramilitary activity, restating that the Second 
Amendment does not prevent the prohibition of private 
paramilitary organizations.
    And third, all 50 states prohibit private militias, whether 
through their state constitutions or other state laws. Twenty-
nine states have anti-militia laws, like the one upheld by the 
Supreme Court in 1886. Twenty-five states have paramilitary 
activity laws that generally prohibit training and practicing 
and the use of firearms or paramilitary techniques for use 
during a civil disorder. Other state laws prohibit falsely 
engaging in the functions of law enforcement or wearing 
uniforms similar to the U.S. military.
    These state laws are rarely enforced. They are not well 
known to local law enforcement. Some local officials lack 
access to information to build cases, or mistakenly believe 
that private militia activity is constitutionally protected. 
And some local officials lack the political will to enforce 
anti-militia election laws, especially in areas with a high 
number of pro-militia voters.
    Congress should consider a Federal anti-militia law. 
Private militias travel and transport weapons interstate, 
combined with other extremist groups from multiple states, and 
some have ties to foreign extremist groups. A Federal law 
prohibiting private militia activity in public while armed 
could provide a civil enforcement mechanism, in addition to 
criminal penalties, allowing the U.S. Department of Justice to 
seek injunctive relief and civil forfeiture against armed 
paramilitary actors and their organizations. Legislation must 
not infringe on constitutional rights and must not be 
susceptible to misuse to target vulnerable populations. This is 
feasible, and my organization would be happy to work with 
Congress in exploring legislative options.
    Thank you again for the opportunity to address the 
subcommittee.
    Mr. Raskin. Well, Professor McCord, thank you very much for 
your testimony, and we will absolutely take you up on your 
offer. I turn now to Attorney General Grewal. You are 
recognized.

    STATEMENT OF GURBIR GREWAL, NEW JERSEY ATTORNEY GENERAL

    Mr. Grewal. Thank you, Chairman Raskin, Ranking Member 
Sessions, and members of the subcommittee. Good afternoon. I 
appreciate the opportunity to share with you some of the 
strategies that we are employing in New Jersey to address 
militia extremism. Today's hearing is timely because the threat 
of domestic violent extremism fueled by militia, anti-
government, anti---white supremacist ideologies, may be greater 
today than at any time in recent memory, though, fortunately, 
militia extremism is less prevalent in my state that in some 
others.
    By way of background, the department that I oversee plays a 
significant role in monitoring and in analyzing intelligence 
involving all forms of violent extremism and enforcing our laws 
to address it. Underlying those efforts are strong reporting 
and information-sharing requirements for all law enforcement 
agencies in New Jersey whenever they receive tips or leads 
relating to violence or terrorism or reports of bias incidents. 
Like many states, New Jersey has criminal laws prohibiting 
unlawful militia activity. Now, while our prosecutors charge 
these crimes in appropriate cases, they may also charge other 
offenses, like firearms offenses, to disrupt a dangerous 
criminal plot and get those involved off of our streets before 
they engage in violent acts. But criminal tools alone aren't 
enough for us to address violent extremism, so we have taken a 
more holistic approach in my state, not only prosecuting 
criminal misconduct, but also confronting the root causes of 
extremist violence. Today, I will highlight two of our 
strategies.
    First, we are working to address hate and bias among our 
young people. New Jersey, unfortunately, has seen a sharp 
increase in reported bias incidents in recent years, which is 
part of a rising tide of hate from coast to coast. Reported 
bias and hate incidents in my state nearly quadrupled in the 
past five or so years from about 367 reported in 2015, to over 
1,400 reported in 2020, and far too many of these incidents 
involve young people, either as the perpetrators or as the 
victims. So, to address this troubling trend, New Jersey 
Governor, Phil Murphy, convened a statewide task force to study 
these issues and to offer solutions. Among other 
recommendations, that task force called for reforms to our 
state's education system to include anti-bias education for 
students and teachers, to put forward tougher hate crime laws, 
and to increase public engagement to address hate and bias. The 
task force report also highlights the roles played by hateful 
and extremist rhetoric on social media and from public figures, 
and it offers recommendations to mitigate the harms that that 
rhetoric can inflict on our young people. Our hope is that 
these strategies will result in fewer young people embracing a 
worldview that might lead them toward extremist violence.
    The second strategy that I will briefly highlight is our 
work to address unlawful firearms activity that poses a threat 
to our public safety. New Jersey has some of the strongest 
firearms laws in the country, including universal background 
checks, limits on assault rifles and large capacity magazines, 
and red flag laws. These laws have been effective. New Jersey 
now has the third-lowest gun death rate in the country, but in 
spite of our successes, a stronger Federal response is needed 
to aid our efforts because most guns used in crimes in my state 
come from other states. So, if the Federal Government adopted 
the same kind of commonsense firearm safety laws that we have 
here in New Jersey, we could reduce the number of firearms that 
make it into the hands of individuals who use them illegally.
    We believe that these strategies--addressing bias and hate, 
reducing unlawful firearms activity, coupled with our criminal 
enforcement, our robust data collection, and information 
sharing, as well as other efforts--can play an important role 
in responding comprehensively to the threats of violent 
extremism, including militia and white supremacist extremism. 
So, I thank you again for inviting me to speak with you today, 
and I look forward to your questions.
    Mr. Raskin. Thank you very much, Attorney General, for your 
excellent testimony. I come now to Professor Simi. You are now 
recognized for your five minutes.

    STATEMENT OF PETER SIMI, PH.D., ASSOCIATE PROFESSOR OF 
                 SOCIOLOGY, CHAPMAN UNIVERSITY

    Mr. Simi. Chairperson Raskin, Ranking Member Sessions, and 
members of the subcommittee, good afternoon, and thank you for 
this opportunity to offer my thoughts regarding white 
supremacists and anti-government militias, a deeply troubling 
and vitally important issue.
    Starting in 1997, I began conducting what social scientists 
refer to as ethnographic fieldwork with anti-government and 
white supremacist extremists across the U.S. That field work 
included, among other things, attending KKK cross burnings, 
neo-Nazi music shows, racist church services, and living with 
extremist families in order to understand their daily lives and 
how they make sense of the world. This type of research 
provided firsthand observation of how extremists managed to 
infiltrate various segments of society and blend into the 
mainstream. My ethnographic fieldwork started with a self-
defined militia group in the southwestern United States, a 
group that represents the hybrid nature of right-wing 
extremism, blending anti-government extremism with Christian 
identity, which is a white supremacist interpretation of 
Christianity, the skinhead subculture, and various other 
elements.
    There is a longstanding overlap between white supremacist 
extremism and militias. The overlap during the first wave of 
the militia movement in the early `90's is well documented. The 
second wave of the militia movement emerged following Barack 
Obama's Presidential election. Leading up to the 2016 
Presidential election, militias coalesced around Donald Trump's 
campaign and eventual presidency, and turned their attention 
toward alleged communist threats, like Antifa and Black Lives 
Matter, while also focusing on anti-lockdown activism related 
to COVID-19.
    Observers often describe three types of right-wing 
extremists: white supremacists, anti-government, and single 
issue. While helpful in some respects, these buckets 
oversimplify a reality that is far more convoluted. While many 
militia groups may claim a race-neutral ideology, this type of 
disavowal strategy is common across right-wing extremist 
groups, including those that most observers would widely 
recognize as white supremacist, for example, KKK factions. In 
other words, there are very few individuals or groups who 
openly self-identify as white supremacist. Militia groups, in 
my experience, have a range of beliefs consistent with those 
found among groups more commonly defined as white supremacists. 
Further, there is cross-fertilization among individuals 
associated with militias and white supremacist groups, with 
some individuals going back and forth and other individuals 
simultaneously affiliating with both types of groups. The high 
degree of overlap can render clear delineations artificial and 
misleading.
    Moreover, the idea that militias are race neutral is an 
illusion. Militias routinely oppose immigration and, in some 
cases, conduct armed patrols of the southern U.S. border. 
Militias also generally oppose Muslims as an existential threat 
to Western civilization. Militias' opposition to immigrants and 
the rejection of Muslims can only be described as xenophobic 
and racist. In other cases, militias often hold views about the 
``new world order'' that quickly bleed into old tropes 
regarding the ``international Jew.''
    On January 6, 2021, tens of thousands of President Trump's 
supporters gathered in Washington, DC. to protest what was 
described as ``the stolen election.'' The Capitol insurrection 
that followed involved a broad constellation of right-wing 
extremists. Some people looked at the images of January 6 and 
commented, ``They don't look like extremists or terrorists,'' 
but that begs the question, what do extremists or terrorists 
look like? The answer is, of course, obvious: extremism and 
terrorism are not about what a person looks like. They are 
about what a person thinks, feels, and how they behave. If you 
think, feel, and act like an extremist, then you are an 
extremist, and it should not matter whether you look like 
someone's next door neighbor or co-worker. And in some cases, 
extremists and even terrorists may wrap themselves in the U.S. 
flag and/or hold positions within law enforcement and the 
military.
    As we struggle to address these issues, we should be 
cognizant of our perceptual biases that may lead to highly 
distorted interpretations regarding what extremism and 
terrorism look like. We should not see January 6 as either new 
or an aberration. When people say, ``As Americans, we don't do 
this,'' I appreciate the sentiment, but the sentiment is wrong. 
As Americans, we do this, and we have a long history of doing 
this. Pretending otherwise does not help us address the 
problem. Violent right-wing extremism, like we saw at the 
Capitol, has been allowed to fester for decades as these 
networks built a massive infrastructure in online and offline 
spaces where highly emotive propaganda is created and widely 
distributed.
    For too long, the U.S. has denied and minimized this 
problem. That time should end. Thank you, and I look forward to 
our discussion today.
    Mr. Raskin. Professor Simi, thank you very much for your 
testimony. And now we will go to Mr. Gonzalez for your five 
minutes.

   STATEMENT OF MICHAEL GONZALEZ, M.B.A., SENIOR FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Gonzalez. Thank you, Chairman Raskin, Ranking Member 
Sessions, and Chairwoman Maloney, for allowing me to speak. My 
name is Mike Gonzalez. I am a senior fellow at the Heritage 
Foundation. The views I express in this testimony are my own 
and should not be construed as representing any official 
position of the Heritage Foundation.
    I was a foreign correspondent for 15 years, living and 
covering some of the globe's most dangerous spots. I have been 
teargassed in Korea, arrested and expelled from Panama, and 
traveled with the mujahideen in Afghanistan in the 1980's. I 
have also lived in Cuba, where I was born. I have, in other 
words, known political strife in my life up close. I do not 
recommend it. One of the many good things about our country is 
that, generally, we solve our political differences in peace. 
The periods of political violence we have had have been 
exceptions with 240 years of political peace and prosperity and 
an experiment in self-rule and limited government that was 
hitherto unknown to man.
    Unfortunately, for the past 12 months, America has lived 
through moments of violence on its streets, a period of 
instability led by the Black Lives Matter organization. The 
violence has so far led to at least 25 Americans being killed, 
and, according to the Insurance Information Institute, more 
than $1 billion in insured losses. We have witnessed over 600 
riots, according to the U.S. Crisis Monitor, and BLM activists 
were involved in 95 percent of the incidents coded as riots for 
which the identity of the participants is known. Federal 
buildings came under attack, police stations were torched, et 
cetera.
    The period of political instability we are currently 
experiencing was sparked by the horrifying killing of George 
Floyd on May 25 last year. The violence associated with BLM, 
however, was not restricted to just last year. In a paper 
published just this month, University of Massachusetts 
researcher, Travis Campbell, tracked more than 1,600 BLM 
protests nationwide between 2014 and 2019. Campbell found that, 
``Civilian homicides increased by 10 percent following the 
protests.'' Vox, by no means a conservative outlet, put the 
impact this way: ``That means that from 2014 to 2019, there 
were somewhere between 1,000 and 6,000 more homicides than 
would have been expected if places with protests were on the 
same trend as places that did not have protests.''
    Obviously, both BLM and Antifa are not the only sources of 
political violence in America. Americans of different races and 
both sexes broke the law and entered the U.S. Capitol on 
January 6. That act was, needless to say, despicable. The 
members of this great body sought refuge, and many feared they 
could be harmed or worse. It is important to condemn this act. 
The people who participated in violence and property 
destruction on the U.S. Capitol on January 6 deserve 
prosecution. And unlike the vast majority of those who 
participated in BLM riots over the past summer, they are being 
prosecuted. The message needs to be sent across the land that 
no political violence will be tolerated.
    January 6 took place in the context of far too many 
Americans apparently coming to the conclusion that their 
grievances will only receive a hearing and that political 
leaders will bend to the demands if they take to the streets, 
invade and attack public and private buildings, and intimidate 
their fellow Americans. You, our political leaders, have the 
responsibility to stop this dangerous notion from spreading, 
and if you do nothing, the responsibility for continued 
violence will be yours as well. Instead, a Member of this House 
said at a demonstration last month, before the Derek Chauvin 
verdict was rendered: ``We've got to stay on the street, and 
we've got to get more active. We've got to get more 
confrontational. We've got to make sure that they know that we 
mean business.'' If people on the right or left, Republican or 
Democrat, continue to justify and excuse the political violence 
of those whom they believe to be ``on my side,'' they are 
simply condoning these acts and encouraging more rather than 
suppressing them.
    In closing, I would like to quote from my upcoming book on 
Black Lives Matter, in which I make the point that the groups 
that are reported to have been involved in the disgraceful 
January 6 attack, ``have very little power over our lives. For 
all the awful symbolism of the attack, those groups do not have 
a political action committee, bills in Congress, millions of 
dollars in hand, a curriculum being disseminated to the 
country's 14,000 school districts, a sycophantic media that 
acts as a press agent, or the cultural cachet that lets BLM 
partner with the musical, Hamilton . . . BLM has all these 
things.''
    I want to thank you very much for your time and attention 
and for the honor of testifying with you today.
    Mr. Raskin. Mr. Gonzalez, thank you so much for your 
testimony. I feel like I have been doing a lot of talking, so I 
am going to hold my questions until we get to the end. And 
perhaps, Debbie Wasserman Schultz, if you are ready, you can be 
the first majority questioner.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I am ready 
to go, and I appreciate your indulgence, although not 
necessary. And I will say that I was hopeful that this hearing 
would start out without divisive rhetoric. Unfortunately, that 
was not to be the case. I certainly think that tossing around 
loaded language, like the ranking member did by referring to 
so-called instigators and accusing organizations, like Black 
Lives Matter groups, who are certainly doing nothing except 
making sure that they could stand up for justice, is 
inappropriate for a hearing like this.
    That having been said, I want to ask my questions first of 
Professor Simi. You are an expert in white supremacist groups. 
Many leaders of the militia movement publicly disavow racism 
and distance themselves from white supremacist ideologies, and 
they claim that their movement is motivated not by racial 
animus, but by concerns about a tyrannical U.S. Government and 
a sinister new world order. I mean, I think these claims of 
anti-racism are a smokescreen that makes it more difficult to 
effectively combat militia extremism. This is for Professor 
Simi. Do you consider racism and white supremacy to be an 
animating factor of militia extremism?
    Mr. Simi. Well, in short, yes, and I would agree that it is 
a strategy that is widely practiced. This disavow. It is public 
relations. It is a branding campaign. It is a way to create 
confusion, and it is a well-worn strategy that has existed for 
a long time. Even people like David Duke, you know, a Klan 
figure, a well-known neo-Nazi, used this strategy in part to 
get elected to the state legislature to Louisiana. So, this is 
a well-worn strategy that has existed for a long time, and 
certainly militia groups of various kinds utilize this 
strategy. And so you have to look at kind of behind the scenes 
and dig a little deeper to really see what are very clear 
indications of racial animus and various other related forms of 
bigotry.
    Ms. Wasserman Schultz. Another linkage between militia 
extremism and the broader problem of white supremacist violence 
is a vast fascination with conspiracy theories. In recent 
months, even in this committee hearing today, we have seen 
militia groups attend various protests at events to ``confront 
Antifa,'' a group whose members they believe are trained in 
Syrian terror camps and funded by George Soros. So, Professor, 
we have seen tragic examples, like the shooting of the Tree of 
Life synagogue in Pittsburgh, of how conspiracy theories can 
motivate people to commit acts of violence. As new conspiracy 
theories gain prominence within the militia movement, what 
threat do these beliefs pose to our collective safety?
    Mr. Simi. Well, the conspiracy theories are very central to 
extremists of all sorts. They really provide a type of glue in 
many respects, and they will often provide points of continuity 
and connection to folks that might not otherwise be connected. 
So, you know, in many respects what we are dealing with is a 
worldview, a broad worldview, a constellation, and the 
conspiracy theories oftentimes are the things that are 
connecting the dots, right? And so conspiracy theories can 
start off in ways that might appear somewhat benign, but they 
can take hold and really move in a much more radicalized, 
violent direction. And so that is obviously our gravest concern 
in terms of threat to public safety.
    Ms. Wasserman Schultz. And really, in my last seconds, I 
want to ask Ms. McCord, how does militia coordination with 
other far-right extremists during the insurrection demonstrate 
the risks of viewing militia groups as separate from other 
white supremacist extremists, because we certainly had warnings 
and demonstrable evidence that there was coordination between 
white supremacists and militia groups. And you could see that 
in the video from ``60 Minutes'' that the chairman showed as 
well.
    Ms. McCord. Yes. Thank you for your question. So, my 
organization worked with a lot of researchers over the past 
years that were tracking online social media and other activity 
of militia extremist groups, as well as conspiracy theorists, 
accelerationists, and other white supremacists extremist 
groups. And we saw an incredible cross-population of their 
propaganda and rhetoric, so it is not as though militias only 
talk to militias, et cetera. And I think that was really 
illustrated in the actual insurrection because you had all of 
these groups stepping out of that virtual space into that 
physical space in Washington, DC, united around a narrative 
that had been building even before the election, went into 
overdrive after the election, the ``Stop the Steal'' narrative, 
and it was able to be that coalescing force that brought all 
these extremist groups together.
    The militias, of course, had, you know, planned, pre-
planned, as you saw in the ``60 Minutes'' piece, and many of us 
knew from looking at social media and their communications, not 
communications that were encrypted or using surveillance 
techniques, but just within their own forums, and we knew that 
they were planning in advance and planning things like a quick 
reaction force. Put that together, the conspiracy theorists and 
the crowds, you have the crowd became a mob. They led the 
charge and the insurrection ensued, participated in by many, 
many, many people.
    Ms. Wasserman Schultz. All right. Mr. Chairman, thank you 
for allowing me the opportunity to connect the dots with my 
line of questioning today, and I yield back.
    Mr. Raskin. You are very welcome. The gentlelady's time has 
expired. I turn now to the ranking member for his five minutes 
of questioning. Mr. Sessions?
    Mr. Sessions. Thank you, Mr. Chairman. Ms. McCord, do you 
consider the KKK to be a group that would advocate violence or 
use of force?
    Ms. McCord. The KKK has in the past, and, in fact, in your 
home state, Congressman, there was a case in the 1980's brought 
against the militia wing of the KKK, a successful case that 
resulted in enjoining them from their abusive threats and 
violence against Vietnamese fishermen, who had relocated there 
after the war.
    Mr. Sessions. Right. Let us try and go at least to 2015 and 
forward then. Do you believe that the KKK uses violence or use 
of force?
    Ms. McCord. I think there are members that do. I would say 
that is not currently one of the militia groups that I think 
are presenting the greatest threat. Militia groups include 
nationwide groups like we have heard about: Oath Keepers, Three 
Percenters. They also are at the local level, and many people 
associate with both. The KKK is a white supremacist group that 
has members that are part of militias and that advocate for 
violence, and has others that have, you know, their own points 
of view and maybe don't advocate for violence.
    Mr. Sessions. Thank you very much. Do you believe that that 
there is any group within the United States military that would 
take this action of violence or use of force within the 
military? Not that military members might or might not be part 
of that, but within the actual military?
    Ms. McCord. I am not entirely sure I understand the 
question. Certainly some militias recruit from the military, 
and we know that there is at least one active duty military who 
has been charged resulting from the insurrection. If what you 
are asking is do I think there is a group within the military 
that, in their role as active duty military, would attempt to 
commit acts of violence in the U.S., I don't know of any 
research that has shown that to be a current threat. But, you 
know, the military is barred by many reasons, Posse Comitatus 
Act among them, from engaging in domestic law enforcement. So, 
generally speaking, the military does not even engage in 
activity in the U.S., absent certain exceptions under the 
Constitution and Federal statute.
    Mr. Sessions. Yes, ma'am, that was my question. Dr. Simi, 
going to the questions of violence and use of force, do you 
believe that BLM would fit within that category?
    Mr. Simi. No, I do not.
    Mr. Sessions. Do you believe that Antifa would be included 
in use of violence or use of force?
    Mr. Simi. There would be some aspects of Antifa that would 
fit that.
    Mr. Sessions. There would be some. Do you believe that the 
Three Percenters have found themselves in circumstances that we 
could point to where they had violence and use of force?
    Mr. Simi. Sure. In Kansas, there were Three Percenters that 
were arrested and charged with trying to attack a housing 
community where immigrants lived, so, yes, absolutely.
    Mr. Sessions. What year was that, sir?
    Mr. Simi. Approximately two years ago.
    Mr. Sessions. Two years ago? Do you consider that the 
people who were engaged in showing up at military funerals to 
disrupt people--I don't remember their name--do you consider 
that they would be considered violent and use of force also 
that we need to pay attention to?
    Mr. Simi. I think you are referring to the Westboro Baptist 
Church.
    Mr. Sessions. I would be.
    Mr. Simi. OK. As far as my knowledge, I have no information 
of any history of them being actually involved in violence. In 
fact, they were involved in successful a Supreme Court case, as 
I recall.
    Mr. Sessions. Well, use of force would be, and I think that 
I would say that I believe that their use of force showing up 
at funerals to disrupt them is a use of force. Thank you very 
much. Mr. Gonzalez, do you consider that BLM uses violence and 
uses force to achieve their political beliefs?
    Mr. Gonzalez. Thank you, Congressman. Yes, as I said, I was 
quoting the Armed Conflict Location and Events Data Project, 
which is not a conservative outfit. Their Crisis Monitor was 
very clear that we had 633 riots last year, events coded as 
riots, and that 95 percent of those for which the identity of 
the perpetrator was known, they were BLM activists. So, it is 
very hard to say that BLM does not provoke violence when you 
have the ACLED showing this data.
    Mr. Sessions. Thank you. And the Attorney General, if I 
could ask you one last question. Do you care who it is that 
shows up in the state to cause violence or use of force? Are 
you concerned about just those two things and you would take 
action against any of them? ``Any of the groups,'' I mean Three 
Percenters, KKK, Antifa, BLM. Anyone that showed up in New 
Jersey to use violence or use of force, do you believe that you 
would, as attorney general, view them all as a threat to the 
public safety?
    Mr. Raskin. The gentleman's time has expired. You may 
answer the question.
    Mr. Grewal. I would.
    Mr. Sessions. Thank you.
    Mr. Grewal. I would, Ranking Member.
    Mr. Sessions. Thank you very much. Mr. Chairman, thank you 
very much for the time.
    Mr. Raskin. You bet. Thank you, Mr. Sessions. Going now to 
the distinguished Congresswoman from Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair, for holding this hearing.
    I must admit starting off with ``60 Minutes'', that was 
hard to look at. As one of the people that was in the gallery 
hoping to get out alive, that brought it back.
    I want to thank the attorney general for what you said. I 
have been fighting in Congress for over eight years and 
discussing gun violence prevention, trafficking, store 
purchases, and all of that. But it has been very difficult to 
get colleagues on the other side of the aisle to agree to work 
on any of those issues. So, I am glad you raised how important 
it is.
    And also the other thing is, it is a little--or I won't 
even say a little. It is a lot insulting to hear about BLM. 
When BLM protesters--and it is OK to protest in the United 
States--came to the Capitol, there were lots of armed people 
out, all covering the steps making sure they didn't do 
anything. And that same--it was very different when it was--it 
may have been mixed, Mr. Gonzalez, but it was at least 95 to 98 
percent white that stormed the Capitol and with very little 
resistance because they were not prepared.
    So, it is a little insulting to hear ``I don't care if 
someone is black, I don't care if someone is,'' but it is 
always a person of color that was mentioned that we don't care 
about. And it is just so frustrating it is hard for me to even 
get my words out that the way people talk, you don't even 
understand your privilege. You don't even think about why there 
is a Black Lives Matter, why it is necessary for there to be a 
Black Lives Matter. Because just listening to the conversation, 
we don't count. And we do count.
    In August 2020, 17-year-old Kyle Rittenhouse from Illinois 
traveled across state lines to join the Kenosha Guard militia, 
which had sent out a call for help policing Black Lives Matter 
protests that were occurring in the city of Kenosha, Wisconsin. 
As we all know, Rittenhouse arrived armed with a rifle to, in 
his telling, ``protect private property.'' After several 
cordial interactions with Kenosha police, Rittenhouse fatally 
shot two protesters and wounded another. He is now awaiting 
trial for first-degree murder.
    This incident reveals that though militias are generally 
thought of as anti-government, they pose a very real threat to 
the general public. Yet the Federal Government continues to 
stress the threat that militias pose only to government 
officials, as the ODNI asserted in its March report.
    Ms. McCord, you have been involved in several lawsuits 
filed in the wake of violent militia activity. Can you give 
some background on the lawsuits and what kind of laws you have 
utilized to make your claims? And then just go on to talk about 
what is your view of the threat militias pose to civilian 
populations, as opposed to just government officials.
    Ms. McCord. Yes, thank you for the question.
    I spent a long career, by the way, at the Department of 
Justice, 23 years there, and left in May 2017. In August, of 
course, we saw the Unite the Right rally in Charlottesville, 
Virginia, and we saw self-professed militias coming there from 
across the country, ostensibly to protect the rights of the 
white nationalists, neo-Nazis, and neo-Confederates. We also 
saw those white nationalists and neo-Nazis themselves engaging 
in paramilitary activity, coordinated, armed activity against 
counter-protesters.
    So, my organization at Georgetown, recognizing that wasn't 
protected First Amendment activity--that violence, those 
threats of violence, it wasn't protected under the Second 
Amendment, given the Supreme Court's case law about 
paramilitary activity. We relied on state anti-paramilitary 
laws, the laws I spoke about in my testimony--the state 
constitutional provision in Virginia, state anti-paramilitary 
law, state law prohibiting private individuals from adopting 
the functions of law enforcement, and also public nuisance. And 
we brought a lawsuit strictly for injunctive relief, not for 
damages, forward-looking injunctive relief on behalf of the 
city, small businesses, and residential associations against 23 
different individuals and organizations who had participated in 
that unlawful militia activity.
    We were successful against motions to dismiss challenging 
our legal theories, and after we were successful in defeating 
those motions, all of the organizations, except for a couple 
who had defaulted, and all of the individuals, including the 
organizers, entered into consent decrees, which the court then 
issued as court orders permanently prohibiting them from 
returning to Charlottesville as part of a unit of two or more 
persons acting in concert while armed with a firearm or 
anything whose purpose is for use as a weapon during any 
demonstration, protest, rally, or march.
    We've used the precedent there to advise jurisdictions 
small and large and including advising law enforcement about 
these tools that they have under their state law to issue 
reasonable content-neutral time, place, and manner restrictions 
in order to protect public safety during demonstrations without 
infringing on First Amendment rights and Second Amendment 
rights. And we recently this past summer, co-counsel with the 
Bernalillo County, New Mexico, district attorney, Raul Torrez, 
who is--we are co-counsel with him in an enforcement action 
against a local militia in New Mexico that deployed to a racial 
justice demonstration heavily armed, again ostensibly to 
protect--to prevent demonstrators from tearing down a statue of 
a Spanish conquistador. And that case is ongoing.
    So, what we have seen----
    Ms. Kelly. I know my time is up. So, I don't want to--I am 
sorry.
    Ms. McCord. I'm sorry.
    Mr. Raskin. You can finish your point, Ms. McCord. And 
thank you, Ms. Kelly.
    Ms. McCord. Yes. So, what we've seen in these cases and 
engaging again--and I've spoken with officials, Republicans and 
Democrats, across the country who are looking for help to 
protect public safety. We've seen militias repeatedly 
traveling. We see they continue to muster and train. They talk 
about opposing governmental tyranny. There is no support in our 
history of Constitution for that role by private actors. And 
we've seen them infringing on other people's constitutional 
rights, other people's rights to free speech and to petition 
their government.
    So, I see them very much as a public safety and national 
security threat.
    Mr. Raskin. Thank you very much. I will now come to Mr. 
Biggs for his five minutes of questioning.
    Mr. Biggs. Thank you, Mr. Chairman. And I thank the ranking 
member, and I appreciate the witnesses being here today.
    Mr. Chairman, as I begin today, I would like to request 
this committee investigate the connection between the Wuhan 
Institute of Virology and the COVID-19 pandemic. Some of us 
have been speaking about that connection between the lab and 
the spread of the virus for some time, but there has recently 
been increased discussion about the origins of the pandemic. 
And even Dr. Fauci seems to be coming around to the position 
that the virus may have originated at the lab.
    I know it is not on topic, but the pandemic has impacted 
every aspect of American life for over a year, and it is time 
for a thorough investigation of the origins of the virus. This 
should be an area, in my opinion, that garners bipartisan 
support. We should all want to know how the pandemic started, 
and so I will be submitting several articles on that for the 
record on that topic.
    Now this is the fifth hearing that this subcommittee has 
held on confronting white supremacy. Over the summer, we saw 
riots engulf our cities. Small businesses were destroyed, shops 
looted, churches set on fire, and yet we have not had a single 
hearing on Antifa and its violent activities.
    And so I get we were looking at Oath Keepers. That was what 
your focus was when you brought up the ``60 Minutes'' video. 
This is what NPR says about ``60 Minutes'' from a piece just a 
month ago. ``Still, it is--'' speaking of the Oath Keepers. 
``Still, it is not a rigid, cohesive organization. Instead, 
researchers say it is loosely knit. The Justice Department 
describes it as a 'large, but loosely organized collection of 
individuals.'"
    And what does CBS say about Antifa? It is very similar to 
that. It is ``not a highly organized movement, nor is it merely 
an idea. It is a loose affiliation of local activists scattered 
across the U.S. and a few other countries.''
    Seems to me, Mr. Chairman, that we ought to be looking at 
both of these groups. If you are going to spend time looking at 
Oath Keepers, let us look at Antifa, too, and see what they 
have done because we have had unrest around this country for 
over a year now.
    But given the events of the past couple of weeks, I would 
also ask that the subcommittee hold hearings on the anti-
Semitic violence that is occurring in cities across the 
country. For example, last week a synagogue in Tucson, Arizona, 
was vandalized. In New York City, a Jewish man was beaten in 
the middle of the street. In Bal Harbour, Florida, four men 
yelled ``Die Jew'' at a man in a skullcap, then they threatened 
to rape his wife and his daughter.
    On Thursday, the Anti-Defamation League shared early 
reports of 193 anti-Semitic incidents in the U.S. compared with 
131 during the previous week. On Twitter, the group said it 
found more than 17,000 tweets using variations of the phrase 
``Hitler was right'' between May 7 and 14.
    Now regardless of where those anti-Semitic sentiments and 
violence originate, I think we need to be looking at those as 
well.
    There was a TikTok challenging Palestinian youth to 
violently beat an Orthodox Jew and post a video of the assault 
on the platform.
    Mr. Gonzalez, I turn to you now. Can you explain why it is 
important for Congress to focus on all types of political 
violence and not just one?
    Mr. Gonzalez. Thank you, Congressman.
    Obviously, in a democracy, the voter has to hear from both 
sides, and the voter cannot be intimidated--cannot be feared to 
be canceled or afraid to speak. If we continue on the path 
we've been on in which one side justifies the violence of those 
it deems to be on their side, then we're just condoning them, 
and we're going to get more violence. In my experience, we get 
more of what we condone and less of what we discourage.
    So, I think it is proper and necessary to discourage and 
condemn the violence that took place on January 6 and the 
violence that took place during 2020. Both sides need to be 
condemned, especially by our leaders.
    Thank you for your question.
    Mr. Biggs. So, you also said in your statement that, ``Our 
media and pundits, having taken a side in our political 
debates--itself a dangerous development--do not speak of the 
BLM violence in the same context of political violence as that 
on January 6.'' Will you please expand on that and tell us why 
you think it is important that we not treat acts of political 
violence differently?
    Mr. Gonzalez. Yes, sure. The media, in my opinion, my 
humble opinion, all through 2020 did not really report or cover 
what was happening, the BLM-led violence. They rather covered 
for them. Again, this is not informing the public, which is the 
role of the media.
    The media should be impartial, should be objective, should 
report as it did on January 6. But it should also report on 
what happened in Kenosha, what happened in Portland, what 
happened in Seattle, what happened in many, many, many cities 
during 2020. Let's not forget what we lived through in 2020.
    Thank you.
    Mr. Biggs. Thanks, Mr. Chairman. I will yield back.
    Mr. Raskin. All right. Thank you for your questioning, Mr. 
Biggs.
    Coming now to the gentlelady from Massachusetts, Ms. 
Pressley.
    Ms. Pressley. Thank you, Chairman Raskin.
    Echoing the sentiments expressed by my sister colleague 
there from Illinois, I would just like to say how deeply 
offensive it is and inaccurate to equate the Black Lives Matter 
movement with militia groups. Just know that when you do that, 
as many of my colleagues are prone to quote Dr. King, that you 
are, in fact, spitting on Dr. King, on his name, on his legacy, 
an original architect of the Black Lives Matter movement. He 
was protesting police brutality, poverty, racism, and 
militarism.
    But I digress--and doing it nonviolently and was affirming 
that Black lives mattered and was murdered because of it. But I 
digress. The oppression, the struggle continues, and white 
supremacy continues to thrive, and it is--and these militia 
groups are a threat to our democracy, to every American, 
especially minoritized and marginalized groups who call this 
country home.
    And it is especially alarming that these violent extremists 
are operating with the tacit and explicit support of police 
officers who have taken an oath to keep us safe. Militia groups 
like the Oath Keepers, who we saw in that video, openly 
bragging about having active duty law enforcement in their 
membership. And leaked data suggest that two-thirds of their 
members have law enforcement or military affiliation.
    The Three Percenters, as have been mentioned, another white 
supremacist militia who actively recruit from law enforcement 
and military communities and including members who were 
arrested for their role in the January 6 attack. And we cannot 
ignore that the violent, racist, anti-Semitic, white 
supremacist mob that endangered the lives of myself, my 
colleagues, staff, and current--included current and former 
police officers.
    Professor Simi, you study this link between policing and 
extremism, are you surprised by the prevalence of Oath Keepers 
and the Three Percenters with law enforcement and military 
affiliation?
    Mr. Simi. Thank you for the question.
    No, I'm not surprised. Again, this is a--you know, these 
specific groups represent a broader problem, which is the 
infiltration of rightwing extremism into law enforcement ranks, 
which has been, you know, a problem that we've been dealing 
with for a long time, but again, not necessarily addressing in 
nearly as an aggressive manner as we should have been.
    And so it doesn't surprise me. It concerns me greatly, and 
I really think it speaks to the need for a national initiative 
to try and root out--first of all, try and identify, because we 
really don't know the extent of the actual problem in terms of 
the number of rightwing extremists that actively hold positions 
in law enforcement.
    And it's not just those that are members of groups either. 
It's folks who are adherents on some level, that have the 
beliefs, that have certain animus that is undeniably going to 
influence how they conduct themselves on the job. And so, we 
know that having these kind of strong beliefs affect a person's 
behavior on the job.
    So, it's both the membership, but it's also folks that have 
the beliefs that aren't necessarily connected to any specific 
groups. And so, I think we need to have a national tracking 
initiative to try and identify this and then root it out.
    Thank you.
    Ms. Pressley. Thank you. And how would you say that the 
presence of law enforcement and military personnel, could you 
unpack it a little bit more, how does that make militia groups 
more dangerous? What is the impact?
    Mr. Simi. Well, yes. One, it's, you know, the authority 
that you have as a law enforcement officer, and in terms of 
military, of course, you're receiving highly skilled training. 
And so one of the things that a lot of these types of groups 
really are looking for are folks with certain kinds of skill 
sets in terms of, you know, experiences with weapon training, 
explosives, and just, frankly, leadership training as well.
    And so, these groups, oftentimes one of the reasons why 
they go after, in terms of recruitment, veterans is that 
they're looking for those kind of skill sets. And then on the 
front end is that in many cases, groups will encourage their 
members to join the military. So, that is individuals who are 
already of this mindset, you know, go into the military for 
very strategic purposes, in order to, again, acquire that kind 
of training.
    So, I would say the training is the big kind of threat 
there in terms of, you know, threat to public safety.
    Ms. Pressley. Thank you.
    And again, we have repeatedly seen how covert and overt law 
enforcement allegiance to militia activity has emboldened white 
supremacist extremists, and it contributes to vigilante 
activity. In Salem, Oregon, officers advised militiamen to stay 
out of sight leading up to the curfew to avoid arrest. In 
Philadelphia, an officer stood by as white supremacist 
vigilantes assaulted a reporter.
    In Albuquerque, police allegedly referred to a local 
militia as ``armed friendlies.'' And in Kenosha, Wisconsin, the 
police praised militia members shortly before one of them, Kyle 
Rittenhouse, shot and killed two protesters.
    The direct partnership between law enforcement and white 
supremacist militias must be called out and must be confronted. 
Attorney General Grewal, how has your office been able to 
successfully prevent infiltration of state law enforcement by 
Oath Keepers, Three Percenters, and others?
    Mr. Raskin. The gentlelady's time has expired, but Attorney 
General, please answer the question.
    Mr. Grewal. Thank you, Chairman, and thank you, 
Congresswoman Pressley.
    I'm the chief law enforcement officer for my state, and I 
have oversight authority over 38,000 law enforcement officers 
and 530 law enforcement agencies. And I have the ability in my 
state, which is unique for AGs, to issue law enforcement 
directives, which are binding on all law enforcement officers.
    So, we've been working with our Division on Civil Rights, 
with our Office of Homeland Security and Preparedness, to do a 
survey of white supremacist groups that are active here, to 
include Oath Keepers, to include Three Percenters, to compile 
their insignia and the signatures that they use, to better 
inform our chiefs of police so they can formulate policies, 
whether uniform policies not to allow folks to wear patches, 
which we've seen in the past, the Three Percenter patches on 
uniforms and things of that nature. Because we think that has 
no place in law enforcement, and people with these ideologies 
have no place in law enforcement.
    And we're also working on the front end to screen out those 
individuals from coming into law enforcement. So, we're doing 
more as far as background checks, social media scrubs, to make 
sure that these types of individuals don't come into law 
enforcement. Because I can think of nothing that undermines the 
trust of the public more quickly, which we're trying to build 
every day, than allowing these types of individuals who hold 
these ideologies to enter into law enforcement.
    Ms. Pressley. Thank you.
    Mr. Raskin. Thank you very much, Ms. Pressley.
    I come now to Mr. Franklin for his five minutes.
    Mr. Franklin. Thank you, Mr. Chairman.
    And thank you to our witnesses today. I really appreciate 
the effort you put into your testimony, and I found it all to 
be very informative.
    Attorney General Grewal, in looking in your comments, your 
testimony, I see that you made an assessment that New Jersey 
classifies white supremacists or extremists and home-grown 
violent extremists as the most persistent hostile actors in the 
state. And that was after the background you gave in your 
testimony.
    You started with Timothy McVeigh, which I think for most--
or for myself as an adult, that was my first clear memory of 
domestic terrorism, though obviously back in the 1960's, we had 
the Weather Underground and other groups like that. But that 
was a very significant event. Timothy McVeigh was clearly, at 
least from what we learned of him, a white supremacist. He was 
also anti-government.
    You also referenced the attack in New Jersey in 2019 that 
killed six. That was actually perpetrated by an African-
American anti-Semite. You referenced the gentleman--well, not 
gentleman, but Mr. Breheny from New Jersey, who was arrested 
January 6. He is currently awaiting trial on a number of 
charges.
    And then also the Parkland shooting in Florida that was 
attributed to a person with severe mental illness that should 
have never happened. And that was known, and had the system 
worked, that tragedy could have been avoided.
    But I was kind of puzzled from your testimony at how you 
drew that white supremacy is such--is the overarching threat to 
the state of New Jersey. And then I thought, well, maybe you 
had made reference to a source that was cited also in this 
memorandum about the hearing we have today that was done by the 
Department of Homeland Security. It is the Homeland Threat 
Assessment.
    And in that assessment--so I went looking for that, 
thinking, well, surely there must be a lot of meat on that 
document there that I would like to learn about. What we 
received was an unclassified summary of a document. So, I have 
to assume that if we got an executive summary, there is an 
underlying document.
    This was unclassified. Our staff tried for a couple of days 
to dig that up, we're finally told, no, we can't get that. 
There is not an unclassified, but apparently, there is a 
classified document, which I think would be very informative 
for this committee. I would love to know what that document 
gets into, and I think it is something we should have a 
followup meeting about.
    But within the bulletized executive summary, it says the 
intelligence community assesses that U.S. racial and ethnically 
motivated violent extremists who promote superiority of the 
white race are the domestic violent extremist actors with the 
most persistent and concerning transnational connections. The 
reason--and the reasoning that it cites is because they have 
similar ideological beliefs with people outside the United 
States, and they frequently communicate with and seek to 
influence one another.
    To me, I am not really sure how those two criteria there 
justify white supremacists being the most violent threat that 
we face in the country, but I am sure there is more in that 
classified document that I would hope we get to.
    But we look at events that have happened over the--well, 
also the document makes further reference to other groups--
domestic violent extremists; racially or ethnically motivated 
violent extremists; animal rights, environmental violent 
extremists; abortion-related violent extremists; anti-
government, anti-authority violent extremists; and then all 
other domestic terrorism threats. So, this DHS document refers 
to a lot of different threats, with white supremacy only being 
one of those, and yet that seems to be the only topic or the 
only focus of this hearing today. That is a little concerning 
to me.
    But moving on to Professor Simi, I really appreciated your 
work. Obviously, you spent a lot of years studying this topic, 
and I found that to be very informative. You talked about 
Timothy McVeigh as well, the Olympic bombings. But then you 
mentioned that had the perpetrators been people of color or 
Muslim, you could be sure the response would have been 
dramatically different.
    So, I actually had our staff do a little research over the 
last couple days pulling domestic attacks just over the last 10 
years, and we really do become desensitized to this as a 
country. I started going--there were at least 15 here. But I 
have got to tell you, some were high-profile like the Boston 
Marathon bombing. Obviously, that was a Muslim extremist.
    We had the San Bernardino, California, shooting that killed 
14. Muslim extremist there. The Orlando nightclub shooting just 
down the road from me in Florida, Central Florida, that killed 
49 people. Also not white supremacy. New York City truck attack 
in 2017 that killed eight. Again, not white supremacy.
    Now there are examples of that, and I am not trying to say 
that there aren't. But there is a lot of violence in our 
country and a lot of people are being killed unnecessarily, and 
yet we are choosing to zero in on a very small piece of this.
    I know I am almost out of time, but Professor Simi, I would 
love to hear your comments about what terrorist extremists look 
like? Because it seems to me, and to cite--not spitting on Dr. 
King's grave, I have tremendous respect for him. I think he 
would be ashamed of what has been happening in our country. He 
would have never condoned $2 billion of violence in a two-week 
period last year.
    But it does make me wonder when you say extremism and 
terrorism are not about what you look like. Extremism and 
terrorism are defined by a person's beliefs, feelings, and 
characters. And just a question for you, sir. Would it be fair 
to summarize that as saying that it is about a person's 
character and not the color of their skin?
    Mr. Raskin. OK, the gentleman's time has expired, but you 
can answer that, Dr. Simi.
    Mr. Simi. Thanks for the question.
    That would be fair in terms of what I'm trying to get at. 
It's about beliefs, feelings, and behavior, not about what we 
think in our mind an extremist or terrorist looks like based on 
our preconceived notions and our biases.
    You know, there is research that shows, for instance, 
mainstream media outlets do treat acts of violence differently 
based on race and religion, ethnicity of the perpetrators. So, 
we do have these biases that are swirling around that affect 
how we see different types of violence.
    I'm not suggesting that there aren't various sorts of 
different acts of violence committed by a whole host of 
different actors, but we treat different kinds based on race, 
ethnicity, religion, and other characteristics differently than 
the kind that we're talking about here today in terms of white 
supremacists and the anti-government militia extremism.
    Mr. Franklin. Thank you, Mr. Chairman. I apologize for 
going long.
    Mr. Raskin. Not at all. Thank you, Congressman Franklin.
    I come now to Congresswoman Norton, who is recognized for 
her five minutes of questioning. The gentlelady from the 
District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Franklin went through a series of things that weren't 
white supremacy. I would like to look definitionally at what we 
are talking about because we certainly are not talking simply 
about white supremacy, even though many of these attacks have 
been by white supremacists.
    So, I found that the Office of the Director of National 
Intelligence--and I think that is a source that all of us would 
take as objective--they describe militia extremists as domestic 
violent extremists who--and here I am quoting them now--who 
``take overt steps to violently resist or facilitate the 
overthrow of the U.S. Government.'' That is who I am focusing 
on.
    I would like to ask Ms. McCord, is it fair to say that it 
has been the goal of the MVEs to overthrow the U.S. Government?
    Ms. McCord. I think that it has been the goal of--I think 
being a check on what they perceive as the tyranny of the 
state, whether that's state government or Federal Government, 
is a common theme among militia and violent extremists. It's 
not the only theme, but it's definitely a common theme.
    But I want to be clear that we see that at every level of 
government. We've seen dramatic plotting and attacks and 
militia activity in opposition to county-level public safety 
measures, state-level COVID-related public safety measures, and 
of course, you know, Federal-level activity, including the 
joint session of Congress seeking to certify the election.
    So, one of the dangerous things is that these groups make 
their own decisions about what they think the Constitution 
means, and if they think that what any elected official is 
doing doesn't comport with their view of the Constitution and 
their own civil rights and civil liberties, then they think 
they are empowered to use arms, to take up arms against that.
    Ms. Norton. Well, let me move on to Attorney General Grewal 
and, again, trying to focus on what it is we are talking about. 
In October 2020, Federal law enforcement arrested 13 members of 
what are called the Wolverine Watchmen. Now that is a private 
militia group in Michigan. They were arrested for plotting to 
kidnap and execute Governor Gretchen Whitmer.
    Attorney General Grewal, did you consider the foiled plot 
against Governor Whitmer to be a significant escalation of 
militia activity?
    Mr. Grewal. I certainly do, Congresswoman. And it obviously 
caused us to be on alert as far as protecting other elected 
officials in my own state, to do better on monitoring 
suspicious activity reporting in our state. So, I certainly saw 
that to be a significant escalation when a plot can be so 
brazenly attempted to target a governor, a sitting governor of 
a state.
    Ms. Norton. Well, what Federal resources would your office 
have needed to effectively respond to a similar threat and----
    Mr. Grewal. Well, I think----
    Ms. Norton [continuing]. yes.
    Mr. Grewal. Yes, you know, I think, again, New Jersey is a 
bit unique in that I have complete criminal jurisdiction, and I 
have really strong relationships with our Federal partners 
here. And when Parkland happened, as was alluded to earlier in 
my testimony, I referenced that for the notion that we didn't 
want to see what happened there happen here, which was gaps in 
reporting.
    So, in the wake of the Parkland shootings, we tightened up 
our reporting system. So, any time that there is a suspicious 
activity report filed with one of our municipalities, that's 
shared at our county level, it's shared at our state level, and 
it's shared with our Federal partners. And we followup on all 
those leads.
    That's why we have a better understanding in my state of 
the number of bias incidents that are happening, where they're 
happening, and that's why we share that information in real 
time. So, policymakers can use it to address concerns in their 
municipalities or in their districts. And so, we could use it 
to deploy law enforcement resources where we see a problem 
escalating.
    Ms. Norton. Thank you. Here is another example. This is for 
Professor Simi.
    Following the election, and that is what I am interested in 
now--the effect on democratic elections--Three Percenters armed 
with semi-automatic rifles surrounded the Arizona state capitol 
and election officers to protect vote counting. In Georgia, 
Secretary of State Brad Raffensperger had to be escorted from 
his office under armed guard, as militiamen surrounded the 
capitol.
    Professor Simi, were you surprised by the willingness of 
militia networks to target free and fair elections, and how 
does militia activity post-election, including January 6, 
relate to the militia movement's opposition to civilian 
authority in these elections?
    Mr. Simi. Thank you for the question.
    I wasn't particularly surprised by it, and that was 
actually one of my most significant concerns leading up to the 
most recent Presidential election would be the use of this kind 
of intimidation and threatening behavior on the part of these 
types of groups. And so I see this as a substantial kind of 
central component to their basically motive for existing, which 
is to exert their will and intimidate democratic forces to bend 
in their direction and to actually really overcome the 
democratic process.
    And so this is one of, I think, the most substantial 
concerns that we face with these groups, and our tendency to 
kind of neglect them is really concerning.
    Mr. Raskin. Great. The gentlelady's time has expired. Thank 
you very much.
    Let us see, is Mr. Donalds still with us? OK. I am going to 
go to Congresswoman Tlaib, you are recognized for your----
    Mr. Donalds. I am here, Mr. Chairman. Still here.
    Mr. Raskin. Oh, all right. Mr. Donalds is here. I recognize 
you for your five minutes, Mr. Donalds.
    Mr. Donalds. Thank you, Mr. Chairman. And witnesses, thanks 
for being here. I do appreciate it.
    My first question is pretty simple. For any of the 
witnesses who choose to answer, are you guys aware of what is 
actually happening in Portland, Oregon, right now?
    Anybody can answer. It is an open question. Come on, guys. 
Don't be shy. Are you guys aware of what is happening in 
Portland, Oregon, right now, or what has happened in Portland, 
Oregon, for the last year, basically, with respect to 
consistent, repeated attacks, targeting of Federal buildings, 
et cetera, and local municipality buildings in the city of 
Portland?
    Ms. McCord. I'm certainly aware of some of what has 
happened in Portland. When you said ``right now,'' I 
literally--I did not know if you meant literally right now, and 
I've been in this. I have not been monitoring the news. So, I 
apologize for not speaking up.
    Mr. Donalds. I am sorry. I am good, thanks.
    Sorry, I am in a Dick's Sporting Goods with my son.
    Explain something to me. Can you guys expound for me what 
has actually taken place over the last year in the city of 
Portland or in the city of Seattle or in some respects in the 
city of Minneapolis over the last year?
    Mr. Gonzalez. Congressman, if I can answer, I think that 
maybe the difficulty in answering this is that the media has 
not been accurately reporting on what has happened in these 
cities. So, a lot of people just--a lot of Americans plainly 
just do not know.
    Mr. Donalds. Well, look, I am going to end my comments 
here. I have been listening to the committee for about an hour, 
and I think it is important for everybody to recognize that, 
yes, what happened on January 6 was a tragedy. The Department 
of Justice is currently going through all of the investigations 
with everybody that they found that was involved, and they are 
continuing to look for new people that were involved.
    I totally support them going through this. They should 
continue their investigations. People who either through 
conspiracy or through actual actions entered the Capitol should 
be prosecuted to the fullest extent of the law. That is my 
belief.
    But at the same time, I am a freshman Member. So, 
obviously, I didn't know this was the sixth hearing this 
committee has had on this subject of domestic terror, white 
supremacy, or however you want to call it. But I think it is 
important for the Oversight Committee, and this committee in 
particular, to actually open up the scope of their 
investigations because it is clear, if you actually talk to law 
enforcement people in these various communities, that there is 
a strain of extremist political violence that is overtaking the 
country.
    And if you want to talk about people on both sides, let us 
go ahead and say that, too, because it does exist. It has been 
existing. We can't
    [inaudible] since the second it started, but we have to 
look at it all together. We can't pick and choose which ones we 
want to focus on and which ones we don't want to focus on.
    Because while the Department of Justice is actively 
investigating what happened in the Capitol building on January 
6, like they should be doing and I am glad that they are doing 
that, we do have political extreme organizations that have been 
consistently attacking law enforcement and Federal buildings 
across the United States. And we should be investigating that, 
too, with the full force of Congress like we are doing to 
people who did perpetrate a frankly heinous attack and a 
tragedy on the Capitol on January 6.
    With that, I yield back.
    Mr. Raskin. Thank you, Mr. Donalds. I recognize Ms. Tlaib 
for your five minutes.
    Ms. Tlaib. Thank you so much, Chair Raskin. Thank you so 
much for all the panelists for being here.
    I think it is really important to note that this hearing is 
supposed to be about white supremacist militias, which everyone 
in this room virtually, whether you want to admit it or not, 
knows that it is a deadly problem. The fact that some are 
trying to shift the focus away from white supremacy to Black 
Lives Matter movement is an example of upholding white 
supremacy. So, I say enough, and let us focus on this really 
important, critical issue.
    I would like to zero in on one particularly disturbing 
element of law enforcement coordination with militia movement. 
It is an organization called Constitutional Sheriffs and Peace 
Officers Association. Very, very misleading, OK? We are going 
to call them CSPOA for short.
    So, CSPOA was founded by the former Arizona sheriff, so-
called Oath Keeper board member named Richard Mack. The 
organization coordinates a network of hundreds of what they 
call ``constitutional sheriffs''--these are their names--who 
claim the power to reject state and Federal laws they consider 
to be unconstitutional, outside of our courts, OK?
    On its own website, it even claims ``the power of the 
sheriff even supersedes the powers of the President.'' An 
absolute absurd statement, to say the least. Mack even claims 
that over 400 sheriffs participated in a coordinated training 
effort that includes at least 265 private sessions per year, 
you all.
    So, Attorney General, do you know any law enforcement 
officials in your state who are associated with this 
organization, and would you be concerned if they were?
    Mr. Grewal. I do not, Congresswoman, and I would be if they 
were. And again, I go back to how New Jersey is different. I 
have oversight over all law enforcement, including all of our 
chiefs and our sheriff's offices. And so, if something happens 
where they're not abiding by the rules we set, the policies 
that we have in place, our state's laws, I have the ability to 
supersede their authority and take over those departments. And 
we've exercised that authority in other instances.
    So, I would be incredibly concerned because I think that 
undermines public trust in law enforcement, which is something 
we're desperately trying to build, which is the cornerstone of 
public safety.
    Ms. Tlaib. Absolutely. And the CSPOA has a clear link to 
white supremacist Oath Keepers. They rallied alongside the Oath 
Keepers and other militias in support of Bundy during his 2014 
standoff, hosted joint fundraisers, and even in 2019, the Oath 
Keepers founder Stewart Rhodes was even a featured speaker at 
the CSPOA's convention.
    Furthermore, leaked documents from the Oath Keepers 
revealed that the organization CSPOA is a core component of the 
militia's--their program, sheriffs outreach program. Members 
are instructed to ask local sheriffs if they would be 
interested in hosting a seminar from Sheriff Mack. The Oath 
Keepers have advertised CSPOA trainings online as recently as 
last year or in 2019.
    Ms. McCord, can you briefly explain the ideological link 
between CSPOA's views of called ``county supremacy'' and the 
militia movement?
    Ms. McCord. Yes, I can. Thank you for that question.
    Because this is something we've seen is a real problem and 
one of the reasons we see so much lack of enforcement at the 
local level of state anti-militia laws. Most states--as 
Attorney General Grewal has explained, most state attorney 
generals, unlike him, do not have general criminal enforcement 
authority. So, the enforcement against militia falls on the 
local law enforcement, on local elected district attorneys.
    So, in places where you have constitutional sheriffs, you 
know, in charge of local law enforcement who are oftentimes not 
only supportive of the local militia, but sometimes members of 
the local militia, sometimes have even advocated for county 
recognition of local militias, this is obviously a situation 
where we're not going to have enforcement against those 
militias.
    And we've seen that in Virginia. We've seen that in many 
other states by constituents who have reached out to contact my 
organization to ask is this legal, is this OK? We've seen--
consistent with that idea that they report only to the 
Constitution as they understand it, we've actually seen 
advocating for county resolutions that would bar, criminally 
bar county officials from enforcing certain new laws. For 
example, new gun safety legislation.
    So, the constitutional sheriffs movement is a dangerous 
movement. It has no really authority under law. It's a made-up 
thing, but it has a real impact.
    Ms. Tlaib. Yes, and Ms. McCord, I really want my colleagues 
to hear this because it is--this past year, they actually 
opposed COVID-19 public health measures and now advertise a 
six-week course in ending ``tyranny and taking down--'' these 
are their words--``the deep state.'' So, sheriffs affiliated 
with CSPOA have spoken in defense of militia-based terrorists 
who has tried to kidnap Governor Whitmer, my own governor, and 
even organized civilian posse, you all, which is a nice name 
for a lynch mob, in my opinion, to respond to racial justice 
protests.
    So, I just really want our colleagues to understand this 
critically important hearing, that we really need to focus on 
this because it is dangerous for all of us to live with these 
groups in our backyard.
    Thank you so much, and I yield.
    Mr. Raskin. The gentlelady's time has expired. Thank you.
    You can answer. Was that a question, Ms. Tlaib, or no?
    Ms. Tlaib. No, Chairman. I just wanted everyone to know how 
dangerous they were. Thank you so much.
    Mr. Raskin. Thank you for your statement.
    All right. Now I am going to recognize myself. I think the 
ranking member and myself, we have both deferred our questions 
to the end here.
    So, I want to do some rapid-fire questions here. First, 
starting with you, Ms. McCord. You demonstrated some of the 
success you have had in using the anti-militia laws, the anti-
insurrection laws, and anti-paramilitary laws at the state 
level. Why do we need a Federal law, and what could we do with 
that that is not happening now?
    Ms. McCord. So, these state level cases have--well, we've 
and one recently with success, and one that's pending, and 
there is some success historically. But we're really--you know, 
it's novel litigation because you're using criminal laws to try 
to bring civil enforcement actions, which state by state is 
either something that is permissible or is not. And we've seen, 
as we've been discussing, that there's a lack of enforcement on 
the criminal side by local law enforcement.
    I think, importantly to your question, though, these are 
not local problems. As we've seen repeatedly, and it's not just 
in the last year, but even historically, even if you look back 
at the armed standoffs at the Malheur Wildlife Refuge in Oregon 
or in Bunkerville, Nevada, we had militias traveling from 
across the country to gather in opposition to the Federal 
agents in both of those cases.
    We had militias travel--the conspiracy charges against 
members of the Oath Keepers who participated in the 
insurrection involved people from six different states. So, 
this is not a local problem. And as the attorney general has 
explained, they're trying to synthesize more information, but 
the Federal Government has superior access to that information 
and superior ability to share it all the way through the states 
and locals.
    And so, coming in to fill that gap and, importantly, to 
include civil enforcement measures that can really go after the 
organizations and not just individuals who commit acts of 
violence would allow for dismantling it more effectively and 
systemically.
    Mr. Raskin. OK. That is a really important answer, and I 
thank you for your clarification of that point.
    Attorney General and Professor Simi, I want to get your 
reaction to something that has been troubling me. In his 
opening statement, Mr. Gonzalez wrote, ``Obviously, Black Lives 
Matter and Antifa are not the only sources of political 
violence in America, although they do represent the majority of 
it.''
    And I went to a study that I had come across when I was 
getting ready for the hearing by the Center for Strategic & 
International Studies, a nonpartisan thinktank which said, 
``White supremacists, extremist militia members, and other 
violent far-right extremists were responsible for 66 percent of 
domestic terrorist attacks and plots in 2020, roughly 
consistent with their share in other recent years.'' And this 
is consistent with what we have been told by the FBI Director 
and Department of Homeland Security.
    That is two-thirds of all instances of violent domestic 
terror incidents. And I don't know why people seem to feel like 
if we are pointing out extremist activity by violent rightwing 
groups, they have got to somehow say, well, Antifa did this or 
whatever. We are trying to deal with a real security problem 
that is confronting state legislatures, the U.S. Congress as 
recently as January, and other institutions in the country.
    Again, there was a claim that 25 Americans have been killed 
because of ``a period of instability instigated by Black Lives 
Matter.'' Well, the Washington Post reviewed 27 deaths that 
were allegedly linked to last summer's protests and found that 
when a suspect was identified, they were almost never linked to 
Black Lives Matter. In many cases, the violence was 
precipitated by far-right extremist provocateurs associated 
with groups like the Boogaloo Bois or militiamen like Kyle 
Rittenhouse.
    So, and one other study I found from the Armed Conflict 
Location and Event Data Project said that 93 percent of Black 
Lives Matter demonstrations were peaceful and that when 
violence occurred, it was isolated, confined to specific 
blocks, and again was subject to that kind of the infiltration 
of provocateurs.
    In any event, Attorney General, let me start with you. What 
do you make of the claim from your experience that Black Lives 
Matter or Antifa make up the majority of political violence in 
this country or in your state, and what is wrong with 
interjecting these kinds of claims when we are trying to 
seriously study the problem of racist, violent white supremacy 
in the country?
    Mr. Grewal. The problem is that it's distracting, Chairman, 
and the other problem is that in my experience in New Jersey, 
it's completely inaccurate. Like other states--in fact, we're 
the most densely populated state, 9 million residents, one of 
the most diverse. We have had a year's worth of protests just 
like every other state in the country. We had the Movement for 
Black Lives take to the streets in New Jersey, but our 
experience was completely different. We had maybe a handful of 
arrests, but 99.9 percent of those protests were peaceful.
    We had law enforcement officers marching with protesters 
because we've worked to build trust between law enforcement and 
community. We had community partners helping us keep our cities 
safe. We had thousands of people during the height of these 
protests protesting not too far from where I am in Newark, and 
it was peaceful. It was community safety partners helping law 
enforcement. It was us leveraging the relationships that we had 
developed throughout the last number of years to make sure that 
those protests resolved peacefully.
    And the other thing is in our experience, we engaged the 
protesters, and we listened to them. We acknowledged the 
shortcomings that they identified in our law enforcement 
practices, and we've worked with community members to improve 
them. You can't improve police-community relations without 
engaging the police and without engaging the community.
    So, we used the whole summer to sit down and have listening 
sessions in the midst of COVID, many of them virtually. But 
again, we didn't see that violence in my state.
    And I think another reason we didn't see that violence in 
my state is because of those commonsense gun safety laws that I 
talked about. We don't have open carry. It's very difficult to 
get a carry permit in our state. You can't get just show up to 
our statehouse protest or counter-protest in an armed way. We 
didn't see that militia-type presence that Professor McCord was 
talking about at our BLM protests.
    So, again, it's distracting. I have a hate problem in my 
state, 1,400 incidents. The majority of them, 60 percent, anti-
Black racist incidents last year, and we have an escalation and 
a radicalization problem that I'm afraid of with our young 
people. So, that's what I'm trying to stop, and that's what I 
want to focus on.
    Mr. Raskin. Thank you, Attorney General. And Dr. Simi, you 
can answer my final question, too.
    Mr. Simi. OK, thank you for the question.
    So, we're talking about violent extremism, and we talked 
about violence. We need to think about what does that mean 
exactly? Certainly one of the most important indicators of 
violence would be fatalities.
    So, if you were to look at, for example, the Anti-
Defamation League's data on this, this idea that Black Lives 
Matter and/or Antifa are committing more violence is certainly 
not consistent with what we know about fatalities, at least as 
the data that's collected by the Anti-Defamation League and one 
of the most significant trainers of law enforcement across the 
country on these issues. So, that just doesn't seem to be borne 
out in that respect.
    Another issue here to consider is that we are dealing with 
a perceptual bias problem. And so, the attorney general 
mentioned the distraction. Sometimes it's intentional. 
Sometimes it's unintentional.
    But in any case, when the effort to discuss militias and 
white supremacist extremism is consistently met with ``what 
about so-and-so,'' it is a distraction, but it also reflects 
this I think fairly deeply entrenched perceptual bias. And we 
need to root that out in addition to dealing with the type of 
extremism we've been talking about today.
    Mr. Raskin. Well, thank you very much.
    I am going to introduce into the record an article that 
just came out of great relevance to our hearing today, which 
says ``Nevada County GOP Canceled Meeting Amid Fear of Proud 
Boy Insurgency,'' and there were threats of the Proud Boys to 
this Republican meeting.
    Mr. Raskin. And obviously, both parties were targeted on 
January 6 at the RNC and the DNC with explosive devices. So, I 
don't see any reason why we should think of this as some kind 
of, you know, partisan tit-for-tat where we have got to point 
at other sides. I don't identify anybody here with the violent 
militias and the movements of violent white supremacy that we 
are talking about.
    Congressman Sessions, I don't know if you had any final 
words you wanted to add today?
    Mr. Sessions. Chairman, thank you very much.
    I would just like to thank our witnesses, who have taken 
time to not only properly prepare, but also to prescribe their 
viewpoints on sheets of paper that would allow us an 
opportunity to really drill down on some of the facts of the 
case.
    I think all four of our witnesses presented information 
that was pertinent to the needs of this committee and I think 
overwhelmingly perhaps the viewpoint that we have got to work 
together if we are going to stop this. It does make a 
difference, and working together means that we not just find 
common ground, but that we find that violence is what we are 
against.
    We are against extremism, and we would be against the use 
of force. We brought in other ideas today, as others have, 
about perhaps religion in this also, religion, that might take 
place against people of Jewish content and faith. Perhaps we 
have other ideas about things that are violent, and I just 
think that we should stand together and say we are against use 
of force. We are against violence. We are against any group of 
people, whether they are official or nonofficial, using their 
ideas and ideals to overcome this country.
    I find it very interesting that--and it is a longer debate. 
It is just a longer debate, but that there would be people who 
might be considered dangerous to this country because they were 
``anti-government,'' but others can show up and be anti-
capitalism and not be considered a threat to this country.
    And it is staggering to me because, as I have told you 
during my time--my dad's time as FBI Director, there were large 
numbers of people that were really anti-IRS. They did not like 
the tax code that we had. They were violent. They killed a 
Federal judge during a period of time several years ago.
    And whether it is anti-IRS, whether it is anti-Federal 
judges or Federal Government, whether it is some things that 
ride the view of economics, I think that we need to understand 
that the basis of what makes this country work is rule of law 
and avoiding extremism.
    So, Mr. Chairman, I want to thank you again for trying to 
work to the middle, work to the middle of ideas, but I think we 
have got to acknowledge that whether you are anti-capitalism or 
whether you are anti-Jewish, to use violence is something that 
we should all be against. Use of force and violence as an 
outcome is a danger to not just keeping our country safe, but 
the individuals who find themselves somewhere in the middle of 
that.
    So, I want to thank you and our witnesses. Thanks very 
much.
    Mr. Raskin. Well, thank you, Mr. Sessions, for your 
thoughtful and perceptive remarks there.
    And I guess I would just close by underscoring the public 
service that all of our witnesses have done today. We need to 
remember that the militias that are referred to in the 
Constitution are those that are authorized and well regulated 
by the Government, not those that some people just declare to 
be a militia in order to engage in vigilante action against 
other citizens.
    And so, there is no constitutional protection for people 
taking up arms against the Government or taking up arms against 
fellow citizens or appointing themselves police officers who 
can go around and enforce the law on their own. That cuts 
against everything we know about the Supremacy Clause and the 
idea that Congress owes it to the people to guarantee a 
republican form of government to the people of all of the 
states. And as much as I love the GOP, that is not a capital 
``R'' Republican, that is a small ``r,'' a republican 
representative form of government, a civilian form of 
government for all of the people.
    So, we will work with all of these great witnesses going 
forward to see whether, indeed, there is a place for Federal 
legislation in the field. And members have an opportunity to 
introduce additional statements if they have any, and we will 
make sure that those become part of the record.
    And I want to thank all of you for coming, and I want to 
commend my colleagues for participating.
    And members have five legislative days within which to 
submit any additional written questions for--to the witnesses, 
and submit them to the chair.
    And I am submitting, finally, a document I have received 
from the Southern Poverty Law Center, their testimony.
    Mr. Raskin. And if there is nothing else, this hearing is 
adjourned.
    Thank you all.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
